BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in Scottlynn J
Hubbard v. State Bar of California, was sent via Next
Day Service to the U.S. Supreme Court, and via Next
day and e-mail service to the following parties listed
below, this 22nd day of March, 2021:
Vanessa Holton
Manuel Jimenez
State Bar of California
180 Howard Street
San Francisco, California 94105
(415) 538-2000
Vanessa.Holton@calbar.ca.gov
manuel.jimenez@calbar.ca. gov
Michelle Cramton
Clerk of the State Bar Court
845 South Figueroa Street
Los Angeles, CA 90017
(213) 765-1400
Michelle.Cramton@calbar.ca.gov

Counsel for Respondent
Russell Handy
Counsel of Record
Potter Handy
8033 Linda Vista Road, Suite 200
San Diego, California 92111
(858) 375-7385
Russ@potter handy .com

Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on March 22, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public

v

[seal]

JOHN u. GALLJ;G'-JER
Notary Public, Slate of Ohio
My Co" mission Expirl?
•Jf,J
\ 141 ~.~C 3
I

